         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Alleged Improprieties Regarding the
Canine Program at the Department
of Energy's Y-12 Site




DOE/IG-0886                        April 2013
                                  Department of Energy
                                     Washington, DC 20585

                                          April 19, 2013


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Alleged Improprieties
                         Regarding the Canine Program at the Department of Energy's Y-12
                         Site"

INTRODUCTION AND OBJECTIVE

The Department of Energy's Canine Program is an essential component of its efforts to identify
and deter potential threats to infrastructure and personnel. At the Y-12 National Security
Complex (Y-12) and other nuclear material hosting sites in the Department, canines are used to
detect explosives, narcotics, concealed humans and also track human presence at facilities that
store, handle and maintain special nuclear material. As outlined in Department directives and
adopted as best practices by law enforcement and security professionals, the performance of
canine teams depends on continual reinforcement of skills through realistic performance testing,
proficiency training and annual certifications. As required by their contract with the Department,
canine services contractors are required to develop and implement a canine training and
certification program that embodies these principles. Canine services at Y-12 were obtained
through a 5-year contract that is valued at almost $15 million.

Our inspection report on Review of the Department of Energy's Canine Program at Selected Sites
(DOE/IG-0755, January 2007) revealed that the Canine Program did not provide an adequate
level of protection for Department personnel and facilities. We found that half of the canine
teams we observed failed explosive detection tests, many canines failed to respond to at least one
of the handler's commands, and that canines did not receive all required training. The
Department concurred with our recommendations for improvement and indicated that corrective
actions were implemented to resolve canine-related issues.

Subsequently, in 2012, we received allegations that the Department's Y-12 site: (1) possibly
"rigged" testing for canine teams, and (2) worked canines beyond their physical capability to
perform effectively. We initiated this inspection to examine the facts and circumstances
surrounding the allegations we received.

RESULTS OF INSPECTION

Because of conflicting testimony and a lack of supporting documentation, we could not
conclusively determine whether there were instances of "rigged" testing. However, our
inspection identified a number of issues that led us to question the efficacy of the processes used
to test, train and certify canines at Y-12.
                                                 2


Specifically:

   •   Canine team certifications did not always meet standards from a certified state or Federal
       government law enforcement agency canine program, as required; and,

   •   Performance testing, training and annual certifications of canine teams were not properly
       conducted and/or documented.

We did substantiate the allegation that handlers had worked canines beyond their physical
capability to perform assigned duties.

Our review of records revealed that canines were worked well in excess of established
parameters. In addition, 7 of the 19 canine handlers we interviewed (37 percent) expressed
concerns regarding the canines being overworked when performing vehicle searches. Some of
the handlers told us that they contacted their supervisor regarding the excess workload, but the
supervisor did not provide any relief. In contrast, a supervisor told us that if a handler ever
requested relief, although the supervisor could not recall such a request, that relief would have
been provided. Despite such assurances, however, we identified 91 instances in which canine
teams exceeded the established workload for vehicle searches for up to 3 consecutive hours.

In response to an initial draft of this report, the Y-12 site official, Management and Operating
(M&O) and Canine Contractor officials told us that canine teams are involved in two types of
activities, screenings and searches, with screenings being less intense than searches. In
particular, they noted that screenings are less detailed and do not require the time and physical
exertion that a vehicle search requires. Contractor officials expressed their views that the subject
of the allegations we received related to screenings rather than searches, and that searches do not
occur at those posts. However, we noted that the contract and the Canine Contractor's
Environmental Safety and Health Plan, January 2008, do not address different levels of searches.

                              Contract and Risk Management Issues

Deficiencies associated with the management of a multi-layered contract structure for furnishing
canine services at the Y-12 site contributed to the problems we observed. The Department's
Prime Contractor for protective services coordinated with the site M&O contractor in
accomplishing the protective force scope of work, which included the canine program as part of
its site security regime. The Prime Contractor awarded a subcontract (Principal Subcontractor)
for the canine service. We found that the Principal Subcontractor subsequently awarded what
was, in effect, a third-tier subcontract to another firm (Canine Contractor) to actually provide
canine services. A Federal official told us that the Y-12 site relied on the Prime Contractor to
provide oversight of the canine teams. Prime Contractor officials told us that they relied on the
Principal Subcontractor to oversee the Canine Contractor. We were told, however, that the
Principal Subcontractor had not actually monitored the work of the Canine Contractor since
2004.

Finally, we identified what we believed to be a concern regarding the risk ranking approach of
security functions at the Y-12 site. Specifically, during discussions, Canine Contractor, Federal
officials and various contractor officials acknowledged that they had not reviewed the training
                                                 3


and certification records for the canine teams. The officials told us that they failed to do so
because the Canine Program was not identified as a high-risk security area based on the
Department's graded approach for risk determination. While we recognize that the Department
has a graded approach, the fact remains that adequate risk ranking of this function at Y-12 was
not always performed.

                              Impact and Site Immediate Response

The issues that we encountered led us to question whether canine teams were able to effectively
prevent or detect the introduction of explosives, narcotics and/or hidden individuals into Y-12.
As such, we brought these concerns to Federal officials during the course of our inspection. In
response, on August 16, 2012, the Department suspended explosive detection and human
detection canine operations at the Y-12 site. Shortly thereafter, the Prime Contractor employed
the services of an independent evaluator to certify the explosive canine teams. The independent
evaluator assessed 35 canine teams on 10 of the 12 required types of explosive testing aids. Our
review of the certification results revealed that of the 35 canine teams, 14 teams missed 1 to 2 of
the 10 types of explosive aids used during the certification. Subsequently, 32 canine teams were
certified and 3 canine teams remained uncertified. On August 20, 2012, canine explosive
operations were resumed at the Y-12 site. We also learned that the Department took action to
flatten the contract structure during our review, requiring the Principal Subcontractor and the
Canine Contractor to report to the M&O contractor.

As noted, the Department took a number of steps after we brought these matters to its attention.
However, we believe that additional action is necessary to address remaining weaknesses,
specifically regarding explosives detection, narcotics certification and human tracking/presence
capabilities. Consequently, to help improve the efficacy of the canine program, we made a series
of recommendations. The recommendations, if fully executed and sustained, should help to
ensure that canine-related security services are effective.

MANAGEMENT REACTION

Management concurred with the recommendations in the report. Specifically, the National
Nuclear Security Administration (NNSA) recognized the need for canine program requirements
to be implemented in a standardized and consistent manner throughout the Nuclear Security
Enterprise. Therefore, the Office of Defense Nuclear Security agreed to develop and implement
standardized policies and guidelines for all NNSA sites utilizing canine detection services.
While NNSA did not agree with our assessment of the risk ranking program, we believe, based
on the facts presented in the report, that adequate security risk ranking at the Y-12 site was not
always performed. The Chief Health, Safety and Security Officer, Office of Health, Safety and
Security, provided general and technical comments to our report. As appropriate, we modified
our report to address other general and technical comments from management.

The comments provided by NNSA are included in Appendix 3.

Attachment
                                                   4


cc:   Deputy Secretary
      Chief Health, Safety and Security Officer
      Chief of Staff
      Director, Office of Security Policy, HS-51
REPORT ON ALLEGED IMPROPRIETIES REGARDING THE CANINE
PROGRAM AT THE DEPARTMENT OF ENERGY'S Y-12 SITE

TABLE OF
CONTENTS


Canine Team Certification and Performance

Details of Finding                                      1

Recommendations                                        10

Management and Inspector Comments                      10

Appendices

1. Objective, Scope and Methodology                    12

2. Prior Reports                                       14

3. Management Comments                                 16
ALLEGED IMPROPRIETIES REGARDING THE CANINE PROGRAM AT
THE DEPARTMENT OF ENERGY'S Y-12 SITE
CANINE TEAM         The Canine Program requires a canine team to meet specific
CERTIFICATION       requirements and standards in the detection of explosives,
AND PERFORMANCE     narcotics, human tracking and human presence. To ensure that
                    these teams perform and meet expected levels of efficiency and
                    proficiency, military and law enforcement have established
                    guidance to assure consistency and integrity to support canine
                    team proficiency. In the absence of Department guidance, our
                    use of these best practices guided us in identifying issues with
                    the Canine Contractor performance such as contract and
                    security risk management, ineffective oversight and the failure
                    of officials to comprehend or adhere to established
                    controls/contract requirements.

Team Requirements   The Canine Program at the Y-12 National Security complex
and Standards       (Y-12) was managed through a multi-layered contract structure.
                    The site's Prime Contract for protective services included
                    coordination with the site Management and Operating
                    contractor (M&O) in accomplishing the protective force scope
                    of work, which included the canine program as part of its site
                    security regime. The Prime Contractor awarded a subcontract
                    (Principal Subcontractor) for the service and the Principal
                    Subcontractor then subcontracted with another firm for canine
                    services. Services provided by the third-tier subcontractor
                    (Canine Contractor) involved furnishing canine teams, with
                    each team consisting of one handler and one canine (Exhibit 1).




                                Exhibit 1. Canine Team

                    By the terms of its contract, the Canine Contractor was required
                    to furnish teams that could detect explosives, narcotics,
                    concealed humans and track human presence. To ensure that
                    the teams functioned effectively, the Canine Contractor was
                    required to conduct training; perform testing to ensure that
                    teams could detect explosives and narcotics, and track/detect
                    humans; and to certify annually the capability of canine teams.
                    The Canine Detection Team Performance Test Protocol
                    (Protocol), developed by the Performance Test Working Group
                    and employed by the Department's Office of Health, Safety and
                    Security, is applicable to all Department sites and establishes

Page 1                                                      Details of Finding
                                                general testing parameters. The Protocol requires that
                                                performance tests include initial tests to establish proficiency of
                                                canine teams prior to operational deployment at a Department
                                                site and ongoing periodic testing to sustain proficiency.
                                                Further, Department Order 473.3, Protection Program
                                                Operations, and the contract require the Principal Subcontractor
                                                and Canine Contractor to furnish certifications plans for its
                                                canine teams that must equal or exceed certification standards
                                                of a certified state or Federal government law enforcement
                                                agency canine program.

                                                Neither the Protocol nor Department Order 473.3, however,
                                                established specific Department guidance on evaluating canine
                                                team proficiency. We also noted that specific procedures for
                                                these activities had not been included in the Canine contract.
                                                As such, we used best practices established by law enforcement
                                                organizations and the military to evaluate the efficacy of the
                                                Canine Contractor's practices. The standards were drawn from
                                                best practices established by the Department of the Army, Army
                                                Regulation 190-12, Military Working Dog Program and the
                                                Scientific Working Group on Dog and Orthogonal Detector
                                                Guidelines, and were similar to those in use by local and
                                                Federal law enforcement. Best practices for testing/training aid1
                                                storage were drawn from those established by the Bureau of
                                                Alcohol, Tobacco, Firearms and Explosives' (ATF), Explosives
                                                Accelerant Detection Canine Programs, and were similar to
                                                those in use by the ATF's canine programs.

                                                Further, after initial discussions of this report, we determined
                                                that Y-12 had not established certification standards that
                                                equaled or exceeded certification standards of a certified state or
                                                Federal government law enforcement agency canine program,
                                                nor has it met this requirement since 2008. Specifically, the
                                                site's Principal Subcontractor and Canine Contractor were
                                                relying on a certification plan from a state that has no
                                                certification standards. Department Order 473.3 requires
                                                certification plans for its canine teams that must equal or exceed
                                                certification standards of a certified state or Federal government
                                                law enforcement agency canine program. The Y-12 site senior
                                                official, and M&O and Canine Contractor officials stated that it
                                                was their belief that the canine program has a certified standard
                                                that was approved by the state for a local county law
                                                enforcement agency. However, we were told by the state
                                                official that the state has no certification standards and only
                                                approves training plans for the local county law enforcement

1
    Testing/training aid is a specific type and amount of individual target substance that is used as a source of odor for
    a canine team to detect.
_______________________________________________________________________
Page 2                                                  Details of Finding
                    agency, not certification standards. The state official further
                    commented that the local county law enforcement agency
                    cannot apply the certification standards to other law
                    enforcement agencies or non-law enforcement agencies. In
                    subsequent meetings we were told by a Y-12 senior official that
                    corrective actions would be taken to address this matter.

Canine Contractor   We could not conclusively determine whether there were
Performance         instances of "rigged" testing during performance testing
                    and annual certification because of conflicting information and
                    a lack of supporting documentation. However, our inspection
                    identified a number of issues that led us to question the efficacy
                    of the processes used to test, train and certify canines at the Y-
                    12 site we evaluated. Notably, our testing revealed that:

                        •   Performance testing, training and annual certifications
                            of canine teams were not always properly conducted
                            and/or documented;

                        •   Handlers had worked canines beyond their physical
                            capability to perform assigned duties; and

                        •   Testing/training aids were not properly stored
                            according to Federal best practices.

                    These issues led us to question the integrity and effectiveness of
                    the Department's Canine Program at Y-12.

                                       Alleged Test Compromises

                    Our interviews with 4 of the 19 former and current handlers
                    employed by the Canine Contractor disclosed examples of
                    potentially "rigged" tests or certification compromise.
                    Specifically, four handlers told us of instances in which: (1) a
                    Canine Contractor official placed testing aids in a specific
                    location and then inappropriately disclosed the location to the
                    handler; (2) a handler gave the canine a verbal command to
                    "sit," a behavior indicating detection of a testing aid, because
                    the canine failed to alert independently; (3) a Canine Contractor
                    official wore a particular arm band, thus alerting the handler to
                    the identity of the official carrying the testing aid; and (4) a
                    Canine Contractor official possibly compromised testing by
                    always placing the explosive aid in the same location.
                    Conversely, the remaining15 canine handlers told us that they
                    could not confirm any of the activities asserted by the other 4
                    handlers and did not believe any of the tests were "rigged."
                    Further, Canine Contractor management officials denied that
                    any of its tests were "rigged" and/or compromised.

Page 3                                                        Details of Finding
                            Training of Canine Teams

         We determined that canine detection teams had not always
         received the required monthly training specified in the contract.
         Best practices indicate that training proficiency is an integral
         part of the evaluation process. The contract also specifically
         requires that canine teams complete a minimum of 4 hours per
         month of off-duty detection training and are introduced to all 12
         explosive and 5 narcotics training aids at least once per month.
         The contract also requires Canine Contractor officials to
         provide training records to the Principal Subcontractor at the
         end of each fiscal year or sooner. Our review of documentation
         for a 6-month period revealed that 13 of the 20 canine teams
         missed at least 1 month of the required training. Specifically, of
         the 13 teams, 3 missed 6 months and 1 missed 5 months of the
         required training. Also, we found that no more than four of the
         required explosives training aids were used per month to
         conduct training. In addition, we found that the designated
         human tracking canine team had not received the required
         training in 16 weeks. When we discussed this issue with the
         Canine Contractor officials, they told us that they would work
         on ensuring that each canine team received the required training
         and document their efforts and results.

                                Testing Processes

         Responsible officials did not implement reliable processes for
         conducting and documenting performance testing and annual
         certifications. Although considered best practices by Federal
         and other law enforcement agencies, we found that responsible
         officials (Department, Prime Contractor, Principal
         Subcontractor and the Canine Contractor) had not maintained
         documentation supporting the conduct of tests, ensured the
         testing criteria was documented, and established pass/fail rates.
         Documentation for performance tests and annual certifications
         was limited to basic information such as the name of the canine,
         handler, and date and pass/fail with no specific details regarding
         the tests conducted. Because of these shortcomings, we could
         not determine whether all canine teams had appropriately
         completed performance tests, always been tested on all required
         explosives and narcotics, and were certified annually, as
         required.

         We also discovered a number of testing anomalies that impacted
         the integrity of the overall evaluation and testing process. For
         example, we were told by the cognizant Prime Contractor
         official that the Canine Contractor placed the testing aids in 90
         percent of the evaluations completed. We also learned that the

Page 4                                            Details of Finding
         officials conducting the exercises frequently placed the training
         aids in the same locations and that the tests were conducted at
         the Canine Contractor's facility. According to a senior Prime
         Contractor official, a Prime Contractor official should randomly
         place the testing aids during performance evaluations not the
         Canine Contractor. That same official also told us that the
         evaluations should be conducted at the facility (such as the
         Y-12 site) and not at the Canine Contractor's facility to help
         ensure the integrity of the process. Finally, we found that
         canine teams were not being evaluated or tested on the full suite
         of explosives aids specified in the canine services contract.

                              Departmental Reaction

         During our inspection, we brought the evaluation, testing and
         certification issues we observed to the attention of Federal
         officials who took prompt action to intervene. On August 16,
         2012, the Department and the Prime Contractor suspended
         explosive detection and human detection canine operations at
         the Y-12 site. Shortly thereafter, the Prime Contractor
         employed the services of an independent evaluator to certify the
         explosive canine teams. The independent evaluator assessed 35
         canine teams on 10 of the 12 required types of explosive aids.
         Our review of the certification results revealed that of the 35
         canine teams, 14 teams missed 1 to 2 of the 10 types of
         explosive aids used during the certification. The minimum
         proficiency level established by the independent evaluator was
         that two missed searches resulted in a "failed" evaluation for the
         canine teams. Subsequently, 32 canine teams were certified and
         3 canine teams remain uncertified. On August 20, 2012, canine
         explosive operations were resumed at Y-12.

                                 Testing Anomalies

         While we recognize that the Department took immediate
         corrective actions to ensure the explosive canine teams were
         certified, additional issues remain that, in our opinion, warrant
         further effort. For example, we found that the Canine
         Contractor self-certified 8 of the 16 canine teams during a
         recent annual certification. Self-certification is contrary to best
         practices that indicate that certifiers conducting annual
         certifications should be independent of handling and training
         canines being evaluated to avoid conflicts of interest or the
         appearance thereof. When discussed with the Canine
         Contractor, officials told us that no one had ever questioned the
         process. However, the Canine Contractor agreed that it needed
         to improve the certification process so that it shows
         independence and improves the integrity of the program.

Page 5                                             Details of Finding
                                               Further, we believe additional actions are warranted to ensure
                                               that human tracking, human presence and narcotics canine
                                               teams are appropriately evaluated, supporting documentation is
                                               comprehensive and that the canine teams are evaluated on all 12
                                               types of explosive aids and 5 types of narcotics aids, as required
                                               by the contract. In addition, we noted that the human tracking,
                                               human presence and the narcotics canine teams were not
                                               evaluated during the recent certification; however, the Prime
                                               Contractor indicated that canine human detection operations
                                               were resumed on August 23, 2012. Furthermore, the Canine
                                               Contractor informed us that the narcotics canine teams had not
                                               been evaluated in over 4 years, yet the canine teams continue to
                                               be relied upon by the Y-12 site for narcotics detection.

                                                                         Training Aid Storage

                                               Our inspection also revealed that the Canine Contractor was
                                               storing all of its explosives aids in a single magazine, thereby
                                               increasing the risk of cross contamination.2 Federal best
                                               practices indicate that cross contamination could occur when
                                               explosive aids are improperly stored and become contaminated
                                               by the prevalent odor (such as dynamite) of a different type of
                                               explosive (such as C-4), thereby potentially desensitizing the
                                               canine to the intended explosive odor. Also, best practices
                                               indicate that multiple, separate storage containers should be
                                               used to segregate each explosive type. Further, our review of
                                               the storage area containing explosives and narcotics revealed
                                               that the Canine Contractor only stored 10 of the 12 required
                                               explosives aids and 4 of the 5 narcotics aids required to conduct
                                               evaluations. We discussed this issue with Canine Contractor
                                               officials, who told us that their storage was adequate but they
                                               would address any issues identified to improve their processes.
                                               During subsequent meetings with a Y-12 site senior official,
                                               and M&O and Canine Contractor officials, we discussed the
                                               details of their corrective actions regarding training aid storage.
                                               The corrective action entails a new technique to minimize the
                                               risk of cross contamination. We provided details of this new
                                               technique to an independent agency. The agency concluded
                                               that the proposed corrective actions would not fully address the
                                               cross contamination issues.

                                                                        Excess Hours Worked

                                               We substantiated the allegation that canines had worked beyond
                                               their physical capability to perform assigned duties. The
                                               Canine Contractor's Environmental Safety and Health Plan

2
    A magazine is a room, place, receptacle, or building used to store ammunition or explosives.

Page 6                                                                                         Details of Finding
         (Plan), January 2008, indicates that when a canine search is
         conducted on more than 25 vehicles in a 1-hour period, and the
         activity does not decline within the first 30 minutes of the next
         hour, the handler must notify the supervisor. Also, when a
         canine detection team searches more than 120 vehicles in an 8-
         hour period, the handler must notify the supervisor. In both
         situations, the supervisor will make a determination if the
         current working canine should be replaced or continue
         searching.

         Of the 19 handlers interviewed, 7 expressed concerns regarding
         the canines being overworked when performing vehicle
         searches. Some of the handlers told us that they contacted their
         supervisor regarding the excess workload in extreme
         environmental conditions such as record breaking heat, but the
         supervisor did not provide relief for the canines. In these
         instances, the handlers stated that the canines were overworked.
         In contrast, the supervisor told us that relief would be provided
         if a handler ever requested it, and the supervisor could not recall
         such a request. Further, contrary to the Plan, our review of the
         canine teams' daily logs revealed that from April through June
         2012, there were 91 instances in which canines searched more
         than 25 vehicles per hour.

         Specifically, we identified 91 instances in which 7 canine teams
         at 2 posts exceeded the established workload for vehicles
         searches for 2 to 3 consecutive hours. For example, on May 23,
         2012, a canine team conducted 60 vehicle searches between
         5:00 and 6:00 a.m., and 42 between 6:00 and 7:00 a.m. for a
         total of 102 vehicles searched during a 2-hour period.

         Furthermore, on June 6, 2012, a canine team conducted 35
         vehicle searches between 5:00 and 6:00 a.m., 30 between 6:00
         and 7:00 a.m., and 30 between 7:00 and 8:00 a.m. for a total of
         95 vehicles searched during a 3-hour period. In commenting on
         our initial draft of this report, the hosting Y-12 site official, and
         M&O and Canine Contractor officials, stated that screenings are
         less detailed and do not require the time and physical exertion
         that a vehicle search involves. The contractor officials further
         stated that screenings, not searches, occur at the posts in our
         examples. We noted that the contract and the Plan do not
         address different levels of searches. We observed that 37
         percent of the handlers expressed concerns regarding the
         canines being overworked when performing vehicle searches
         and in some cases in extreme environmental conditions. As
         such, the skills and proficiency of the canine detection teams



Page 7                                              Details of Finding
                       could be impacted if the team is required to conduct excessive
                       vehicle searches, thereby potentially compromising the security
                       posture at the Department's Y-12 site.

CONTRIBUTING FACTORS   The issues we identified in this report were the result of several
                       contributing factors. These factors included issues with contract
                       and risk management, ineffective oversight and the failure of
                       officials to comprehend or adhere to established
                       controls/contract requirements.

                                   Contract and Risk Management Issues

                       Problems associated with the management of a multi-layered
                       contract structure for furnishing Canine Services at the Y-12
                       site contributed to the problems we observed. The Department's
                       Prime Contract for protective services required that it provide a
                       canine program as part of its site security regime. In response,
                       the Prime Contractor awarded a subcontract to the Principal
                       Subcontractor for the service. We found that the Principal
                       Subcontractor awarded what was, in effect, a third-tier
                       subcontract to the Canine Contractor to actually provide canine
                       services. A Federal official told us that the Y-12 site relied on
                       the Prime Contractor to provide oversight of the canine teams.
                       Prime Contractor officials told us that they relied on the
                       Principal Subcontractor to oversee the Canine Contractor.
                       However, we were told that the Principal Subcontractor had not
                       actually monitored the work of the Canine Contractor since
                       2004. Specifically, the contract required that all training
                       records and annual certifications were to be furnished to the
                       Prime Contractor on an annual basis; however, none were
                       furnished by the Principal Subcontractor or the Canine
                       Contractor since at least 2004. Also, the contract required the
                       Canine Contractor to maintain the 12 types of explosive
                       testing/training aids and the 5 types of narcotics, but the Canine
                       Contractor only maintained 10 types of the explosives
                       testing/training aids and 4 types of narcotics.

                       We also identified what we believed to be a concern regarding
                       the "risk ranking" approach of security functions at the Y-12
                       site. Specifically, during discussion, Canine Contractor, Federal
                       officials and various contractor officials acknowledged that they
                       had not reviewed the training and certification records for the
                       canine teams. The officials told us that they failed to do so
                       because the Canine Program was not identified as a high-risk
                       security area based on the Department's graded approach for
                       risk determination. While we recognize that the Department
                       has a graded approach, the fact remains that adequate risk
                       ranking of this function at Y-12 was not always performed.

Page 8                                                            Details of Finding
         Finally, we observed that responsible officials (Federal and
         contractor) did not always comprehend or adhere to established
         contract requirements or controls/best practices intended to
         maintain the effectiveness of the canine program. In particular,
         responsible officials told us that they were not aware of certain
         requirements to implement an effective evaluation process and
         were unaware that the state had no certification standards for a
         canine program. Further, the Canine Contractor was unaware of
         the cross contamination issues associated with storing all types
         of explosives in one magazine. Additionally, regarding the
         canines working beyond their physical capability, we were told
         by the handlers that they did not always raise concerns to
         management regarding the excess workload for canines because
         prior requests for relief had not been addressed. Some of the
         handlers also told us that they were uncomfortable notifying
         management because they feared reprisal.

                       Impact and Site Immediate Response

         The issues that we encountered led us to question whether
         canine teams were able to effectively prevent or detect the
         introduction of explosives, narcotics and/or hidden individuals
         into a highly secure nuclear facility. For example, the absence
         of comprehensive documentation coupled with inconsistent
         information on the number of canine teams and number of
         training aids used made it difficult to determine whether all
         canine teams were properly trained. As such, we brought these
         concerns to Federal officials during the course of our
         inspection. As noted, the Department took a number of steps
         after we brought the matters raised in this report to its attention.

         While we commend the action taken thus far, we believe that
         additional action is necessary to address remaining weaknesses,
         specifically regarding explosives detection, narcotics
         certification and human tracking/presence capabilities. Without
         a reliable process for ensuring the proficiency and reliability of
         canine teams, the risk increases substantially that explosives,
         narcotics and human presence may not be detected at the
         Department's Y-12 site. Consequently, to help improve the
         efficacy of the canine program we made a series of
         recommendations. The recommendations, if fully executed and
         sustained, should help to ensure that canine related security
         services are effective.




Page 9                                              Details of Finding
RECOMMENDATIONS      To address the canine proficiency issues identified in this
                     report, we recommend that the Acting Administrator, National
                     Nuclear Security Administration require the Federal manager of
                     the Y-12 site we reviewed to:

                         1. Establish and implement canine program certification
                            standards that equal or exceed certification standards of
                            a certified state or Federal government law enforcement
                            agency canine program, as required;

                         2. Develop and implement processes designed to ensure
                            that canine performance testing, training and
                            independent annual certification are conducted and
                            documented consistent with contract requirements and
                            best practices;

                         3. Determine an acceptable level of performance for the
                            canine teams and establish and implement policies and
                            procedures that reflect performance expectations;

                         4. Ensure that all required explosive and narcotic
                            testing/training aids are acquired, maintained and used,
                            as required;

                         5. Ensure that procedures are developed and implemented
                            to assure that canines do not work beyond their
                            physical capability to perform assigned duties; and

                         6. Provide additional guidance on performing and
                            prioritizing oversight of security work performed by
                            subcontractors using the risk based approach.

MANAGEMENT AND       Management concurred with the recommendations in the report.
INSPECTOR COMMENTS   Specifically, regarding Recommendations 1 through 6, the
                     National Nuclear Security Administration (NNSA), indicated
                     that the M&O contractor will benchmark the Y-12 site's canine
                     program against several existing state or Federal law
                     enforcement agency canine programs to determine if its current
                     program meets or exceeds those standards. Further, NNSA
                     agreed to: (1) develop a requirements document that outlines
                     the basis for canine operations on site and the expectations for
                     the various duties performed by the canines; (2) document
                     acceptance test and no notice performance test protocols; ( 3 )
                     rewrite the canine subcontract Statement of Work (SOW) to
                     incorporate the appropriate language as it applies to training
                     and documentation expectations; (4) continue reviewing
                     current processes and best practices as they apply to explosive

Page 10                                   Recommendations and Comments
          testing/training aid procurement, storage, and maintenance;
          and (5) implement newly developed "Certification Protocols"
          and procedures to ensure appropriate oversight of canine
          certifications.

          While NNSA did not agree with our assessment of the risk
          ranking program, we believe based on the facts presented in the
          report that adequate security risk ranking at the Y-12 site was
          not always performed. Additionally, the Chief Health, Safety
          and Security Officer, Office of Health, Safety and Security,
          provided general and technical comments to our report.

          We have addressed management's comments and as
          appropriate, we modified our report to address other general and
          technical comments from management. The comments
          provided by NNSA are included in Appendix 3.




Page 11                   Management and Inspector Comments
Appendix 1

OBJECTIVE     The objective of this inspection was to examine the facts and
              circumstances surrounding the allegations that: (1) the
              testing of canine teams was possibly "rigged," and (2)
              canines were worked beyond their physical capability to
              perform assigned duties.

SCOPE         We conducted this allegation-based inspection from July
              2012 to April 2013 at the Y-12 National Security Complex.

METHODOLOGY   To accomplish the inspection objective, we:

                   •   Interviewed Department, Prime Contractor,
                       Principal Subcontractor and Canine Contractor
                       officials;

                   •   Interviewed state officials responsible for a state
                       canine program and state law enforcement
                       standards;

                   •   Conducted a walkthrough of the Canine
                       Contractor's facilities;

                   •   Interviewed a Canine Training Official from the
                       Bureau of Alcohol, Tobacco, Firearms and
                       Explosives concerning certain aspects of proper
                       explosives storage;

                   •   Reviewed applicable regulations, directives and
                       policies related to the Department's Canine
                       Program; and,

                   •   Reviewed and analyzed the relevant contracts,
                       Principal Subcontractor's and Canine Contractor's
                       plans, as well as prior reports issued by the Office
                       of Inspector General.

              We conducted this allegation-based inspection in accordance
              with the Council of the Inspectors General on Integrity and
              Efficiency's Quality Standards for Inspection and
              Evaluation. Those standards require that we plan and
              perform the inspection to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our conclusions
              and observations based on our inspection objective. We
              believe the evidence obtained provided a reasonable basis for




Page 12                              Objective, Scope and Methodology
Appendix 1 (continued)

                         our conclusions and observations based on our inspection
                         objective. Accordingly, the inspection included tests of
                         controls and compliance with laws and regulations to the
                         extent necessary to satisfy the inspection objective. Because
                         our review was limited, it would not necessarily have
                         disclosed all internal control deficiencies that may have
                         existed at the time of our inspection.

                         Finally, we relied on computer-processed data, to some
                         extent, to satisfy our objective. We confirmed the validity of
                         such data, when appropriate, by reviewing source documents.

                         Management waived the exit conference.




Page 13                                         Objective, Scope and Methodology
Appendix 1

                                      PRIOR REPORTS

The following Department of Energy (Department) Office of Inspector General (OIG) reports are
related to the Department's Canine Program.

   •   Special Report on Review of the Compromise of Security Test Materials at the Y-12
       National Security Complex (DOE/IG-0875, October 2012). On August 29, 2012, a
       Department of Energy's Office of Health, Safety and Security (HSS) inspector discovered
       a copy of a security knowledge test in the patrol vehicle of a WSI-Oak Ridge (WSI-OR)
       Protective Force official. The inspector raised concerns regarding what appeared to be a
       compromise of the upcoming test. The Office of Inspector General initiated a review into
       the alleged compromise of the HSS inspection. Our inquiry confirmed that the security
       knowledge test, including answers to the test questions, had been compromised and that it
       had been distributed in advance of the test to numerous WSI-OR Captains, Lieutenants,
       and Security Police Officers (SPO). The conclusion was based on interviews with
       Federal and contractor officials who had knowledge of the test distributions. WSI-OR
       personnel testified that there was no intent to cheat on the HSS inspection. We found the
       credibility of this testimony to be questionable. The failure to properly safeguard the test
       prior to its administration, especially given the intense focus on Y-12 and the security
       concerns at the site, was, in our opinion, inexplicable and inexcusable.

   •   Special Report on Inquiry into the Security Breach at the National Nuclear Security
       Administration's Y-12 National Security Complex (DOE/IG-0868, August 2012). During
       the early morning hours of July 28, 2012, three individuals (hereinafter referred to as the
       trespassers), gained access to the area surrounding the Highly Enriched Uranium
       Materials Facility (HEUMF) at Y-12 and defaced the building without being interrupted
       by the security measures in place. We commenced a special inquiry into the
       circumstances surrounding the Y-12 breach. We conducted interviews with Federal and
       contractor officials, security personnel, and alarm station operators. We also reviewed
       supporting information pertinent to the sequence of events. We found that the Y-12
       security incident represented multiple system failures on several levels. For example, we
       identified troubling displays of ineptitude in responding to alarms, failures to maintain
       critical security equipment, over reliance on compensatory measures, misunderstanding
       of security protocols, poor communications, and weaknesses in contract and resource
       management. Further we noted that Y-12 Federal and contractor officials had not
       identified security cameras as a high-risk area using a risk-based approach. The
       maintenance and repair of critical security cameras that, if properly maintained, should
       have prevented or promptly detected the breach of the perimeter by the trespassers. This
       resulted in trespassers gaining access to the protected security area directly adjacent to
       one of the Nation's most critically important and highly secured weapons-related
       facilities.

   •   Report on Review of the Department of Energy's Canine Program at Selected Sites
       (DOE/IG-0755, January 2007). The objective of this review was to determine whether
       the Department's Canine Program at three Department sites provided an adequate level of
       protection for personnel and facilities. We determined that the Canine Program did not


Page 14                                                                             Prior Reports
Appendix 1 (continued)

      provide an adequate level of protection for Department personnel and facilities.
      Specifically, we found that half of the canine teams we observed failed the explosive
      detection portion of the operational evaluation; each of the canines we observed in
      suspect apprehension demonstrations failed to respond to at least one of the handler's
      commands; and, the canines were not receiving the minimum number of hours of weekly
      training for explosives detection that were specified in the contractor's standards. We
      made recommendations to the relevant program offices, Fossil Energy and HSS to
      address these issues and enhance security. While our inspection identified concerns at
      three specific Department sites, we recommended that HSS review the Canine Program at
      all Department sites to ensure they provide an adequate level of protection for
      Department personnel and facilities.

  •   Report on Protective Force Performance Test Improprieties (DOE/IG-0636, January
      2004). During a June 2003 performance test, responder protective forces won four
      scenarios when predicted that they would decisively lose two. Based on information
      developed during the course of an internal review, the Site Manager became concerned
      that the test may have been compromised and requested that the OIG initiate a review.
      Based on information developed during the course of the review, the scope of the
      inspection was expanded to examine whether there had been a pattern over time of site
      security personnel compromising protective force performance tests. Our inspection
      confirmed that the results of the June 26, 2003, performance test may have been
      compromised. We found that shortly before the test, two protective force personnel were
      inappropriately permitted to view the computer simulations of the four scenarios. This
      action compromised controlled (test-sensitive) information. As a consequence, the test
      results were, in our judgment, tainted and unreliable.




Page 15                                                                        Prior Reports
Appendix 3

             MANAGEMENT COMMENTS




.



Page 16                            Management Comments
Appendix 3 (continued)




Page 17                  Management Comments
Appendix 3 (continued)




Page 18                  Management Comments
Appendix 3 (continued)




Page 19                  Management Comments
                                                                    IG Report No. DOE/IG-0886

                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the audit or inspection would have been helpful to the reader in
      understanding this report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report that would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
